"Review of National Network Grant (90-CW-1097) Georgetown University Child Development Center, Washington, D.C."(A-03-01-00515)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of National Network Grant (90-CW-1097) Georgetown University Child Development Center, Washington, D.C." (A-03-01-00515)
February 12, 2002
Complete
Text of Report is available in PDF format (463 KB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
From October 1, 1996 to September 30, 2000 Georgetown University (the University) received $424,656 in grant funds from
the Administration for Children and Families (ACF) for the National Network grant.  We were unable to determine if
the University accomplished the grant objectives because neither ACF nor the University could produce a written agreement
on grant objectives.  Our review disclosed the University had numerous grant accomplishments, complied with standard
terms and conditions of the grant and was capable of managing Federal funds.  However, we found the Universitys equipment
records did not include required identifying information.  The University officials did not comment on the equipment
record weakness.  Regarding grant objectives, the University stated their verbal interaction with ACF officials and
comments on University generated grant documents are evidence of an agreement on grant objectives.